Customs Rulings Online Search System (CROSS) Document Preview

Page 1 of 5

HQ 966062
March 11, 2003
CLA-2 RR:CR:TE 966062 jsj
CATEGORY: Classification
TARIFF NO.: 6001.22.0000
Mr. Herbert J. Lynch Sullivan & Lynch, P.C.
156 State Street Boston, Massachusetts 02109-2508
Re: Classification; Laminated Warp Knit Pile Fabric; Subheading 6001.22.0000, HTSUSA; Chapter
60, Note 1(c); Chapter 59, Note 1; Country of Origin; 19 C.F.R. 102.21 (c)(2).
Dear Mr. Lynch:
The purpose of this correspondence is to respond to your request dated March 6, 2002, directed to
the National Commodity Specialist Division. The correspondence in issue requested, on the behalf of
your client, Velcro USA, Inc., a binding classification and country of origin ruling of the
merchandise described as laminated warp knit fabric.
This ruling is being issued subsequent to the following: (1) A review of your submission dated
March 6, 2002; (2) A review of the Customs Service laboratory report number: NY 20020351, dated
May 28, 2002; and (3) An examination of the base fabric sample and the laminated fabric sample.
FACTS
The article in issue, identified as laminated warp knit fabric, is formed by laminating a sheet of
plastic to a two bar warp knit fabric. The Customs Service Office of Laboratory and Scientific
Services, subsequent to examining samples, reported that the lapping movement of the two guide
bars moving in unison in the same direction produced an unstable construction with inclined loops.
The lapping movements of the front bar is expressed as 1/0, 1/2, with the lapping movements of the
back bar expressed as 1/0, 3/4. The back bar, which pulls the yarn over two rows of stitches before
forming a knit stitch, is adjusted in the formation of this fabric to provide less tension. The result is
the production of a float that projects upward from the surface of the fabric. The projection of the
looped float created by the back guide bar is entirely a function of its relative tension and not any
process subsequent to knitting. The fabric has not been brushed.
The yarn used in the formation of the Velcro® fabric is 100 % nylon. It weighs approximately 72.2
grams per square meters. It will be imported in 101.6 centimeter widths. The fabric, subsequent to
formation, is laminated with a sheet of polypropylene plastic that is visible to the naked eye. The
plastic sheeting is imprinted with differing designs, including those of animals, in different colors.
The production of the finished Velcro® product, the laminated warp knit fabric, is undertaken in the
following countries:
Spain: The nylon warp knit fabric is formed on warp knitting machines in rolls that are sixty inches
wide.
Germany: The warp knit fabric, subsequent to export from Spain to Germany, is laminated with
polypropylene film that had previously been decorated with water-based acrylic motifs appealing to
children.

http://rulings.customs.gov/detail.asp?ru=966062&ac=pr

2/25/2004

Customs Rulings Online Search System (CROSS) Document Preview

Page 2 of 5

The Customs Service has not been advised whether the nylon yarn is extruded in Spain or whether
the polypropylene film is produced in Germany.
ISSUE
What is the classification, pursuant to the Harmonized Tariff Schedule of the United States
Annotated, of the above-described laminated warp knit fabric?
What is the country of origin of the laminated warp knit fabric that is knitted in Spain and laminated
in Germany ?
LAW AND ANALYSIS
Classification
The federal agency responsible for initially interpreting and applying the Harmonized Tariff
Schedule of the United States Annotated (HTSUSA) is the U.S. Customs Service. The Customs
Service, in accordance with its legislative mandate, classifies imported merchandise pursuant to the
General Rules of Interpretation (GRI) and the Additional U.S. Rules of Interpretation.
General Rule of Interpretation 1 provides, in part, that classification decisions are to be "determined
according to the terms of the headings and any relative section or chapter notes." General Rule of
Interpretation 1. General Rule of Interpretation 1 further states that merchandise which cannot be
classified in accordance with the dictates of GRI 1 should be classified pursuant to the other General
Rules of Interpretation, provided the HTSUSA chapter headings or notes do not require otherwise.
According to the Explanatory Notes (EN), the phrase in GRI 1, "provided such headings or notes do
not otherwise require," is intended to "make it quite clear that the terms of the headings and any
relative Section or Chapter Notes are paramount." General Rules for the Interpretation of the
Harmonized System, Rule 1, Explanatory Note (V).
The Explanatory Notes constitute the official interpretation of the Harmonized System at the
international level. See Joint Explanatory Statement supra note 1, at 549. The Explanatory Notes,
although neither legally binding nor dispositive of classification issues, do provide commentary on
the scope of each heading of the HTSUS. The EN’s are generally indicative of the proper
interpretation of the headings. See T.D. 89-80, 54 Fed. Reg. 35127-28 (Aug. 23, 1989); Lonza, Inc.
v. United States, 46 F. 3d 1098, 1109 (Fed. Cir. 1995).
Commencing classification of the laminated warp knit fabric, in accordance with the dictates of GRI
1, the Customs Service examined the headings of the HTSUSA. Heading 6001, HTSUSA, provides
for the classification of "[p]ile fabrics, including ‘long pile’ fabrics and terry fabrics, knitted or
crocheted." The principle issue to be addressed by Customs in the classification of this fabric is
whether the fabric is "pile." The Explanatory Notes and prior Customs Service ruling letters assist in
resolving this question. Explanatory Note 60.01 provides, in part:
Unlike the woven fabrics of heading 58.01, the products of this heading are obtained by knitting.
The following methods of production are those mainly used:
a circular knitting machine produces a knitted fabric in which, by means of an additional yarn,
protruding loops are formed; afterwards the loops are cut to form pile and thus give a velvet-like
surface; a special warp knitting machine knits two fabrics face to face with a common pile yarn; the
two fabrics are then separated by cutting to produce two knitted fabrics with a cut pile; textile fibres
from a carded sliver are inserted into the loops of a knitted ground fabric as it is formed ("long pile"
fabrics); textile yarn to form loops ("imitation terry fabrics") (see General Explanatory Note). Such
fabrics have rows of chain stitches on the back of the fabric and they differ from the pile facrics of
heading 58.02, which are characterised by rows of stitches having the appearance of running stitches
along the length of the back of the fabric. (Emphasis added).

http://rulings.customs.gov/detail.asp?ru=966062&ac=pr

2/25/2004

Customs Rulings Online Search System (CROSS) Document Preview

Page 3 of 5

Customs, relying on EN 60.01, has previously concluded that the processes enumerated in the EN are
illustrative, rather than exclusive. The EN specifically states that the methods of production listed are
those "mainly used" in the formation of "pile" fabric.
The determinative factor with regards to whether fabric is considered to be "pile" fabric is whether
the process utilized results in the production of a fabric with raised loops, not whether the fabricmaking process is listed in the Explanatory Note. As stated in HQ 951374 (Oct. 30, 1992), "if during
the weaving or knitting of a fabric, yarns are caused to project from the surface(s) (i.e., the base
material) of that fabric creating a ‘pile’ appearance, that fabric will be considered a pile fabric for the
purposes of the HTSUSA…." The Velcro® fabric subject to this classification ruling comports with
the requirement that yarns project from the surface of the fabric as the result of the fabric-making
process resulting in the production of a "pile" fabric. See generally HQ 953303 (April 9, 1993); HQ
953942 (May 7, 1993).
Chapter 60, Note 1(c) provides, with a single exception, that knitted or crocheted fabrics that are
impregnated, coated, covered or laminated are classified in Chapter 59, HTSUSA,. The exception set
forth in Chapter 60, Note 1(c) states that knitted or crocheted pile fabrics that are impregnated,
coated, covered or laminated remain classified in heading 6001, HTSUSA. The Velcro® fabric falls
within the exception to Chapter 60, Note 1(c), as it is both a knit pile fabric and laminated. It is,
therefore, classified in heading 6001, HTSUSA.
Continuing the classification of the Velcro® laminated warp knit pile fabric, the fabric is classified in
subheading 6001.22.0000, HTSUSA. Subheading 6001.22.0000, HTSUSA, provides for the
classification of:
Pile fabrics, including "long pile" fabrics and terry fabrics, knitted or crocheted:
Looped pile fabrics:
6001.22.0000 Of man-made fibers.
Counsel for the importer suggests that the fabric is properly classified in heading 5903, HTSUSA.
Heading 5903, HTSUSA, provides for the classification of "[t]extile fabrics impregnated, coated,
covered or laminated with plastics, other than those of heading 5902." The phrase "textile fabrics" in
heading 5903, HTSUSA, is defined in Chapter 59, Note 1. Chapter 59, Note 1 states that "[e]xcept
where the context otherwise requires, for the purposes of this chapter the expression "textile fabrics"
applies only to the woven fabrics of chapters 50 to 55 and headings 5803 and 5806, the braids and
ornamental trimmings in the piece of heading 5808 and the knitted or crocheted fabrics of headings
6002 to 6006." Since the Velcro® fabric is classified in heading 6001, HTSUSA, it is not a "textile
fabric" for the purposes of Chapter 59 or heading 5903, HTSUSA.
Country of Origin
The Uruguay Round Agreements Act, particularly section 334, codified at 19 U.S.C. 3592, as
amended by section 405 of Title IV of the Trade and Development Act of 2000, sets forth rules of
origin for textile and apparel products. Customs, pursuant to legislative authority, published
regulations implementing the principles set forth by Congress.
Section 102.21 of Customs regulations establishes, with specifically delineated exceptions, that
"the provisions of this section shall control the determination of the country of origin of imported
textile and apparel products for purposes of the Customs laws…." 19 C.F.R. 102.21. Textile and

http://rulings.customs.gov/detail.asp?ru=966062&ac=pr

2/25/2004

Customs Rulings Online Search System (CROSS) Document Preview

Page 4 of 5

apparel products that are encompassed within the scope of section 102.21 are any goods classifiable
in Chapters 50 through 63 of the HTSUSA, as well as goods classifiable under other specifically
enunciated subheadings. See 19 C.F.R. 102.21 (b)(5).
The Velcro® laminated warp knit pile fabric, as previously determined, is classified in Chapter
60, HTSUSA. It is, therefore, a textile product subject to the rules of origin in 19 C.F.R. 102.21. See
19 C.F.R. 102.21 (b)(5).
The country of origin of textile and apparel products is determined by the sequential application of
paragraphs (c)(1) through (c)(5) of section 102.21. Paragraph (c)(1) provides that "[t]he country of
origin of a textile or apparel product is the single country, territory or insular possession in which the
good was wholly obtained or produced." Since the knit fabric was formed in Spain and the
polypropylene film was laminated to the fabric in Germany, the origin of the finished laminated warp
knit pile fabric cannot be determined by reference to paragraph (c)(1).
Paragraph (c)(2) of section 102.21 provides that where the country of origin cannot be determined
according to paragraph (c)(1), resort should next be to paragraph (c)(2). The country of origin,
according to paragraph (c)(2), is "the single country, territory or insular possession in which each
foreign material incorporated in that good underwent an applicable change in tariff classification,
and/or met any other requirement, specified for the good in paragraph (e)" of section 102.21.
Paragraph (e)(1), as applicable to the instant determination, establishes a tariff shift rule that
provides:
HTSUS Tariff Shift and/or Other Requirement
6001-6006 (1) Except for fabric of wool or of fine animal hair, a change from greige fabric of
heading 6001 through 6006 to finished fabric of heading 6001 through 6006 by both dyeing and
printing when accompanied by two or more of the following finishing operations: bleaching,
shrinking, fulling, napping, decating, permanent stiffening, weighting, permanent embossing, or
moireing; or, (2) If the country of origin cannot be determined under (1) above, a change to heading
6001 through 6006 from any heading outside that group, provided that the change is the result of a
fabric-making process.
Since paragraph (1) of the tariff shift requirement for heading 6001, HTSUSA, does not establish the
country of origin of the laminated warp knit pile fabric Customs must examine paragraph (2).
Paragraph (2) of the tariff shift requirement necessitates inquiry into whether the nylon yarn used in
the formation of the fabric is classified in a heading other than headings 6001 through 6006,
HTSUSA, and whether the tariff shift to heading 6001, HTSUSA, resulted from a "fabric-making
process." Although Customs was not advised of the country where the yarn was extruded, since the
fabric was formed in Spain and subsequently laminated in Germany, it is not necessary to know the
country of extrusion of the yarn.
The yarn of which the Velcro® fabric is knitted is entirely nylon. Nylon yarn is classified in Chapter
54, HTSUSA. Customs Regulations define "fabric-making process" to mean "any manufacturing
operation that begins with polymers, fibers, filaments (including strips), yarns, twine, cordage, rope
or fabric strips and results in a textile fabric." 19 C.F.R. 102.21 (b)(2). Customs is cognizant that the
knit pile fabric in issue is laminated. Subsequent to a thorough examination of 19 C.F.R. 102.21 and
prior Customs Service ruling letters, it is the decision of this office that the lamination process, with
regards to fabric classified in heading 6001, HTSUSA, does not impact the origin determination.
It is Customs decision that the process of knitting nylon yarn classified in Chapter 54, HTSUSA, into

http://rulings.customs.gov/detail.asp?ru=966062&ac=pr

2/25/2004

Customs Rulings Online Search System (CROSS) Document Preview

Page 5 of 5

a textile fabric of heading 6001, HTSUSA, constitutes a manufacturing operation that results in the
production of a textile fabric. The country of origin of the Velcro® laminated warp knit pile fabric,
knitted in Spain and laminated in Germany is Spain.
HOLDING
The Velcro® laminated warp knit pile fabric is classified in subheading 6001.22.0000,
Harmonized Tariff Schedule of the United States Annotated.
The General Column 1 Rate of Duty is seventeen and four-tenths (17.4) percent ad valorem.
The textile quota category is 224.
The country of origin of the laminated warp knit pile fabric, knitted in Spain and laminated in
Germany is Spain.
The designated textile and apparel category may be subdivided into parts. If subdivided, any quota
and visa requirements applicable to the subject merchandise may be affected. Since part categories
are the result of international bilateral agreements which are subject to frequent negotiations and
changes, to obtain the most current information available, we suggest your client check, close to the
time of shipment, the Status Report On Current Import Quotas (Restraint Levels) an internal issuance
of the U.S. Customs Service which is updated weekly and is available for inspection at the local
Customs Service office. The Status Report On Current Import Quotas (Restraint Levels) is also
available on the Customs Electronic Bulletin Board (CEBB) which can be found on the U.S.
Customs Web site at www.customs.gov.
Due to the changeable nature of the statistical annotation (the ninth and tenth digits of the
classification) and the restraint (quota/visa) categories, your client
should contact its local Customs office prior to importation of this merchandise to determine the
current status of any import restraints or requirements.
Sincerely,
Myles B. Harmon, Director

Commercial Rulings Division

http://rulings.customs.gov/detail.asp?ru=966062&ac=pr

2/25/2004

